<html>
<title> - MEMBER PROJECT REQUESTS FOR THE WATER RESOURCES DEVELOPMENT ACT OF 2005</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
MEMBER PROJECT REQUESTS FOR THE WATER RESOURCES DEVELOPMENT ACT OF 2005

=======================================================================

                                (109-7)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 16, 2005

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
21-628                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

SHERWOOD L. BOEHLERT, New York       EDDIE BERNICE JOHNSON, Texas
WAYNE T. GILCHREST, Maryland         ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           JOHN T. SALAZAR, Colorado
STEVEN C. LaTOURETTE, Ohio           JERRY F. COSTELLO, Illinois
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          BRIAN BAIRD, Washington
ROBERT W. NEY, Ohio                  TIMOTHY H. BISHOP, New York
GARY G. MILLER, California           BRIAN HIGGINS, New York
HENRY E. BROWN, Jr., South Carolina  ALLYSON Y. SCHWARTZ, Pennsylvania
BILL SHUSTER, Pennsylvania           EARL BLUMENAUER, Oregon
JOHN BOOZMAN, Arkansas               ELLEN O. TAUSCHER, California
JIM GERLACH, Pennsylvania            BILL PASCRELL, Jr., New Jersey
TOM OSBORNE, Nebraska                RUSS CARNAHAN, Missouri
TED POE, Texas                       NICK J. RAHALL, II, West Virginia
CONNIE MACK, Florida                 ELEANOR HOLMES NORTON, District of 
LUIS G. FORTUNO, Puerto Rico         Columbia
CHARLES W. BOUSTANY, Jr.,            JAMES L. OBERSTAR, Minnesota
Louisiana, Vice-Chair                  (Ex Officio)
VACANCY
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Allen, Hon. Thomas, a Representative in Congress from Maine.....    24
 Carnahan, Hon. Russ, a Representative in Congress from Missouri.    18
 Castle, Hon. Michael N., a Representative in Congress from 
  Delaware.......................................................    16
 Foley, Hon. Mark, a Representative in Congress from Florida.....    16
 Fortuno, Hon. Luis, a Delegate in Congress from Puerto Rico.....    28
 Gilchrest, Hon. Wayne T., a Representative in Congress from 
  Maryland.......................................................     2
 Holt, Hon. Rush D., a Representative in Congress from New Jersey    26
 Jindal, Hon. Bobby, a Representative in Congress from Louisiana.    19
 Kanjorski, Hon. Paul E., a Representative in Congress from 
  Pennsylvania...................................................     5
 McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts..................................................    23
 Miller, Hon Candice, a Representative in Congress from Michigan.    21
 Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
  District of Columbia...........................................    22
 Pallone, Hon. Frank, Jr., a Representative in Congress from New 
  Jersey.........................................................     9
 Rohrabacher, Hon. Dana, a Representative in Congress from 
  California.....................................................    12
 Shays, Hon. Christopher, a Representative in Congress from 
  Connecticut....................................................     7
 Stupak, Hon. Bart, a Representative in Congress from Michigan...    27

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

 Allen, Hon. Thomas, of Maine....................................    31
Andrews, Hon. Robert E., of New Jersey...........................    33
Blumenauer, Hon. Earl, of Oregon.................................    35
Boustany, Hon. Charles W., Jr., of Louisiana.....................    37
 Carnahan, Hon. Russ, of Missouri................................    38
 Castle, Hon. Michael N., of Delaware............................    40
Costello, Hon. Jerry F., of Illinois.............................    49
Cuellar, Hon. Henry, of Texas....................................    50
Davis, Hon. Susan A., of California..............................    51
Foley, Hon. Mark, of Florida.....................................    53
Holt, Hon. Rush, of New Jersey...................................    55
 Jindal, Hon. Bobby, of Louisiana................................    57
 Kanjorski, Hon. Paul E., of Pennsylvania........................    62
 McGovern, Hon. James P., of Massachusetts.......................    66
Matsui, Hon. Doris, of California................................    68
 Miller, Hon Candice, of Michigan................................    70
Norwood, Hon. Charlie, of Georgia................................    73
 Pallone, Hon. Frank, Jr., of New Jersey.........................    76
 Rohrabacher, Hon. Dana, of California...........................    77
Ros-Lehtinen, Hon. Ileana, of Florida............................    79
 Shays, Hon. Christopher, of Connecticut.........................    81
 Stupak, Hon. Bart, of Michigan..................................    83
Westmoreland, Hon. Lynn A., of Georgia...........................    87
Wilson, Hon. Heather, of New Mexico..............................    89


MEMBER PROJECT REQUESTS FOR THE WATER RESOURCES DEVELOPMENT ACT OF 2005

                              ----------                              


                       Wednesday, March 16, 2005

        House of Representatives, Subcommittee on Water 
            Resources and Environment, Committee on 
            Transportation and Infrastructure, Washington, 
            D.C.

    The subcommittee met, pursuant to call, at 10:02 a.m., in 
Room 2167, Rayburn House Office Building, Hon. John Duncan 
[chairman of the subcommittee] Presiding.
    Mr. Duncan. I will go ahead and call the subcommittee to 
order. Today the subcommittee is meeting to hear testimony from 
Members of Congress regarding their project requests for the 
Water Resources Development Act of 2005.
    In the last Congress, the subcommittee developed 
legislation authorizing the Army Corps of Engineers' projects, 
and we passed that bill in the House by a vote of 412 to 8. 
That was after a very long process, with great work done by my 
Ranking Member, Mr. Costello, and we will always appreciate his 
work on that bill. Since that legislation was not enacted, we 
have given Members of Congress an opportunity to update their 
project requests.
    I think for the last bill we had over 300 letters from 
Members and 400-and-something total requests, and we are 
getting about that many this time. We do have several Members 
who have requested that they be allowed to testify, and so we 
set up this hearing to allow them to do so.
    We have some--we have at least Mr. Gilchrest, who wants to 
testify from the dais, so we will get to him in just a moment. 
But first we will turn to the very distinguished Ranking 
Member, my friend Eddie Bernice Johnson, for any statement that 
she wishes to make.
    Ms. Johnson. Thank you, Mr. Chairman, for holding this 
hearing today on the Water Resources Development Act of 2005. 
This hearing marks the beginning of the process to authorize 
vital water resource projects for the U.S. Army Corps of 
Engineers, and the Corps is the Nation's premier water 
resources agency. The Corps' primary missions are to aid in the 
planning, design, construction and maintenance of the Nation's 
navigation and flood control projects and improvements, and 
projects for environmental and ecosystem restoration.
    This committee has a long tradition of bipartisan support 
for the Corps of Engineers, and has worked diligently to 
approve water resources legislation on a biennial schedule. 
Unfortunately, however, no water resource legislation has been 
signed into law since the year 2000, despite consistent efforts 
of the House.
    In both the 107th and 108th Congress, the Committee on 
Transportation and Infrastructure approved water resource 
development legislation only to have these bills fail to reach 
the President's desk. I am hopeful that this year Congress will 
finally send a completed water resources bill to the President 
and that the President will sign this deal into law. A great 
number of vital projects for flood control and navigation 
improvement and environmental restoration await congressional 
authorization before they can begin.
    We have waited too long for this legislation. It is time to 
finish the job.
    Mr. Chairman, I am pleased that we have scheduled today's 
hearing to hear from our colleagues in the House and to learn 
of their legislative priorities for the Water Resources 
Development Act. I look forward to hearing from our witnesses 
so that we can have a better understanding and appreciation of 
their concerns. Thank you very much.
    Mr. Duncan. Thank you very much, Ms. Johnson.
    Mr. Duncan. Mr. Gilchrest.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Thank you, Mr. Chairman. I wanted to briefly 
run through some of our water requests.
    Mr. Duncan. Okay.
    Mr. Gilchrest. The first one is in a small community in 
Charlestown, Maryland, on the eastern shore of Maryland. It is 
a community of 11 homes. Those 11 homes have been there for 
decades and decades. Two things happened. One, there was a 
large development upstream from these 11 homes, which actually 
changed the floodplain, and it changed the hydrology, so that 
instead of there being a large area where the water could be 
absorbed, there were a number of impervious surfaces developed 
so that it changed the floodplain map that FEMA used to 
determine who was in the floodplain.
    The other thing is a narrow culvert under a railroad bridge 
where that excessive water would back up because of the way it 
was channelized. What we are asking for is a $2 million buyout 
for those 11 homes. It would be a permanent deconstruction, and 
they are all voluntary sellers.
    The other issue is a small lake that is dammed. It wouldn't 
be a lake if it wasn't dammed, and over the years there's been 
an accumulation of nitrogen buildup in the lake because of 
livestock. It continues to interfere with fish--a normal fish 
passage to be spawned in this tidal wetland, the forested 
wetland, so we would ask for an increase in the authorization 
for 206 aquatic restoration projects. It would be one of many 
great examples where you could take the nitrogen-laden mud out 
of that lake, take the dam down, bring back that natural 
forested wetland, which would be good for the fish, much better 
for the ducks, and a whole raping of other species.
    The third one is the section 910, which is a pilot program 
that improves and helps the State with their construction and 
engineering design of water restoration projects--and I have a 
photograph here--Blackwater Wildlife Refuge on the eastern 
shore of Maryland, that the Corps of Engineers designed for the 
first time a way to restore lost marsh, and I would like to 
just pass this up to you. You can take a look at it, the 
Baltimore District of the Corps of Engineers. It is a fantastic 
project. They use dredge material as a beneficial use. They put 
that dredge material down. You see the complete restoration of 
that marsh area of thousands of acres. It is a great program.
    The last thing, Mr. Chairman, is the Corps of Engineers is 
working on a native oyster restoration project in the State of 
Maryland. What they are doing, instead of restoring oyster 
beds, the Corps of Engineers is actually building oyster reefs 
the way they were 300 years ago, and in a way they are much 
more prolific and much more beneficial to cleaning the water, 
providing habitat for other species and so on. And so we are 
asking for that particular project for the Chesapeake Bay, an 
enormously positive $30 million for the oyster reef activities. 
It is not an oyster bar which will be covered by silt, which is 
subject to all kinds of degradation. It is an oyster reef that 
makes the oysters a lot more prolific, a lot healthier, and it 
is a much more natural ecosystem process for the Chesapeake 
Bay.
    Thank you very much, Mr. Chairman.
    Mr. Duncan. Thank you very much, Mr. Gilchrest. Those sound 
like very worthwhile projects.
    I believe Mr. Bishop, or Mr.--who is first here? Mr. 
Salazar was first.
    Mr. Salazar. Thank you, Mr. Chairman. I would like to make 
a brief opening statement.
    I look forward to hearing from my fellow Members of 
Congress on projects that are important to their own districts 
and to work towards getting the Water Resources Development Act 
signed into law.
    In rural Colorado, water is the lifeblood of our rural 
communities. Those of us who work the land every day understand 
the lack of adequate water, and it can be devastating. For 
those of us in the heartland, that drought is a national 
disaster and devastates local communities. I have made a 
lifelong commitment to uniting rural water users and to 
improving local water structure.
    As a representative of the Third Congressional District, I 
have made a commitment to make sure that Colorado receives its 
fair share of Federal project funding.
    Water is not a partisan issue. Rural communities need 
water. We cannot allow our work on defending water rights to 
fall apart because of partisan bickering. I look forward to 
working with everyone on this committee to help make sure that 
we take care of rural communities and their water needs.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you very much, Mr. Salazar.
    Mr. Brown.
    Mr. Brown. Mr. Chairman, I just want to commend you for 
holding the hearing today and for getting the bill moving 
again. I am disappointed we didn't get it passed through the 
whole process last year, but I appreciate your leadership on 
this matter and look forward to working with you.
    We do have a few projects we will talk to you about later. 
Thank you.
    Mr. Duncan. All right. Thank you very much. Anybody, Mr. 
Bishop or Mr. Blumenauer, do you have a statement?
    Mr. Blumenauer. Thank you, Mr. Chairman. I too appreciate 
being able to move forward. I have requests for floodplain and 
environmental restoration, but I won't take the committee's 
time with at this point.
    But I do hope that we are going to be able to deal with 
some broader strategic issues in WRDA. We, I hope, will 
consider raising funding limits for the Continuing Authorities 
Program that was authorized and awarded in 1996. The limits for 
these programs are really too low to meet the demands of 
environmental restoration projects nationwide, which has 
impacts for me at home, and, I think, for others.
    But I also hope that we are going to be able to continue 
our discussion and our focus on what some have termed--and I 
think appropriately--Corps reform, issues of independent review 
and mitigation. We had some reference to this earlier, but I 
think, Mr. Chairman, they need to have a high priority. I think 
there is a lot that we can squeeze out of existing resources.
    In some of the painful hearings we have had here, we heard 
that some of the areas that cross-currents developed that were 
not good for the Corps or the public process. I think we can 
avoid those with a thoughtful program of independent review. I 
hope that we can look forward to strengthening these 
provisions.
    Something that has been a deep concern of mine is the 
Corps' Principles and Guidelines. They really haven't been 
updated since 1983. Under your leadership, Mr. Chairman, with 
our Ranking Member, Ms. Johnson, we might be able to do 
something to beat their 25th anniversary.
    It is a different world, as you well know. Some of the 
hearings that we have had before this panel, we have all come a 
long way. For us to be frozen in time, back in 1983, is just a 
missed opportunity and it invites problems that we don't need. 
So, with your permission, I hope we can move in that direction.
    I will stop at this point, submit a statement for the 
record, but I wanted to get those two provisions in.
    Mr. Duncan. Well, thank you very much, Mr. Blumenauer, you 
have been a very fine member of this subcommittee. The bill 
that the House passed went further toward Corps reform than we 
have ever done; some of those things are done by the Army Corps 
already, even though that legislation did not pass the Senate. 
But we have gotten encouraging words so far from the Senate, 
and I think we are on the verge of passing this bill this time.
    Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. I thank you and 
Ranking Member Johnson for calling this hearing and for 
allowing members to testify about important Army Corps projects 
throughout the country.
    Last week we all had the opportunity to discuss the Army 
Corps' budget and the spending priorities the administration 
has set for the coming fiscal year, and I am pleased that now 
Members of Congress will have the opportunity to highlight 
important initiatives in their districts and throughout the 
Nation.
    There are many initiatives that I hope are addressed as 
part of the upcoming Border Act, and I want to touch on a few 
of the most important proposals for my district. The Montauk 
Point Study Area, which includes the historic lighthouse 
commissioned by President Washington, is located on a bluff at 
the eastern end of the southern fork of Long Island. While the 
Montauk Point Lighthouse was originally built 300 feet from the 
eastern tip of Long Island, it now stands only 75 feet from the 
ocean.
    It obviously needs protection from constant erosion. Over 
the past few years, this ongoing Corps project has become 
bogged down due to an unclear set of guidelines Congress 
established more than a decade ago. It is now appropriate to 
clear up any confusion on Congress's intent on projects dealing 
with single-user issues like Montauk, and I am hopeful that 
this subcommittee will work to incorporate the changes I have 
proposed.
    In addition to dealing with the situation in Montauk Point, 
there are many continuing projects in my district that need to 
be reauthorized as part of the WRDA, and I will continue to 
work to assure that these initiatives, such as the Atlantic 
Coast Monitoring Program, are continued and completed on 
schedule.
    It is important that we draft a bill that appropriately 
addresses the Corps' role in protecting our shorelines and 
safeguarding the environment while preserving the longstanding 
balance of the Corps' civil and military responsibilities.
    So I appreciate your willingness, Mr. Chairman, and the 
Ranking Member's willingness to pursue a new WRDA Act so early 
in the 109th Congress.
    Thank you very much.
    Mr. Duncan. Thank you very much, Mr. Bishop. We had 400-
and-something requests in the last WRDA bill, and we are going 
to have that many or more in this bill. Many, many Members have 
requested that they be allowed to testify in person, and we 
have got 15 scheduled today.
    The first two are here with us, and we are very pleased to 
have the Honorable Paul Kanjorski and the Honorable Christopher 
Shays with us. Your full statements will be placed in the 
record. You can summarize if you wish to do so, but we are 
pleased to have you.
    Mr. Duncan. Paul, you can begin your testimony.

 STATEMENT OF THE HON. PAUL E. KANJORSKI, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Kanjorski. Thank you very much, Mr. Chairman, and thank 
you for offering this opportunity to testify. I come before the 
committee today to discuss two public policy priorities in my 
district: (1) flood protection and (2) improvements in water 
quality.
    The Susquehanna River runs through the heart of 
northeastern Pennsylvania in my congressional district. Of 
course, it is rather famous for its floods and pollution, and 
these projects relate to that. First and foremost, I urge the 
committee to continue to support the flood control projects and 
the Wyoming Valley Levee Project, which is about 80 to 85 
percent complete. We are in the last few stages of getting that 
done. Anything that the committee can do consistent with the 
language that I have submitted to the committee will be very 
helpful.
    We also want to attach a Solomon Creek Flood Control 
Project to the Wyoming Valley Levee Raising Project. We have 
included language that--incidentally, this attachment did pass 
the 108th Congress in H.R. 2557, which you know, did not make 
its way through the Senate. So we urge the committee to 
maintain the Solomon Creek Flood Control Project in the new 
bill as it moves through.
    Also, I would appreciate the inclusion of an authorization 
for the Bloomsburg Flood Control Project. What we are doing 
there is asking for an authorization, subject to the completion 
of the chief's report that will be finalized by the end of 
December. The Corps has assured me that they will complete 
that, and that would give us sufficient authorization to move 
on to design and construction.
    Also, we have what is called the Nanticoke Creek Ecosystem 
Restoration Project. Nanticoke Creek is a substantially 
polluted creek that flows down into the Susquehanna River. 
Because of the size of the restoration, it needs individual 
authority, and I ask the committee to give that authority in 
the new bill.
    We also have the Olyphant Flood Control Project, which is 
located in Lackawanna County, and it requires increases in 
authorization level, and we have submitted statements and 
information in accordance thereto.
    The communities in my district lack the sufficient capacity 
to address some of these problems without the support of the 
Federal Government. One major problem that we are working with 
is handling combines sewer overflows (CSOs). In order to 
accomplish that, I have worked very closely with the Corps. We 
have provided language for Title II, section 219, of the 1992 
WRDA Act and Title III of the 1992 WRDA Act. The submitted 
language will be instrumental in giving authority to move on to 
correct incredibly bad combined sewer overflow problems, not 
sizable in nature. We require that adjustment so that 
appropriations can be made under those two titles.
    Finally, I heard our colleague from Maryland mention the 
Chesapeake Bay Environmental Restoration Project program. I am 
urging the committee to increase the authorization level 
significantly on that program, and particularly to relate to 
the committee that it is important. You may say the Chesapeake 
Bay is in Maryland, but I am from Pennsylvania. Well, I want 
the committee to know that 50 percent of the fresh water that 
flows into the Chesapeake Bay comes from the Susquehanna River.
    I also may add, with embarrassment, that 50 percent of the 
pollution of the Chesapeake Bay, man-made pollution, comes from 
the Susquehanna River. So by increasing the authority level of 
the Chesapeake Bay Environmental Restoration Program, the Corps 
will be able to go upstream into the Susquehanna to take care 
of some of the really difficult problems.
    Basically, Mr. Chairman, we have submitted papers to the 
committee with our requests and language changes that are 
necessary to accomplish all these ends. I want to thank the 
committee for its positive nature in taking this bill up. It is 
certainly essential. I agree with the statements I have heard 
from all the members.
     Mr. Salazar, water quality is absolutely essential. We 
can't be bogged down in 1982 thinking. We have got to really 
advance, and I see the forward motion of this committee 
accomplishing that very thing. I want to take this opportunity 
to compliment you on your good works, and appreciate all the 
efforts you can give towards my projects.
    Thank you.
    Mr. Duncan. All right. Thank you very much, Paul. We don't 
ordinarily ask many questions of members, since we know you 
have such busy schedules, and we will have a chance to talk to 
you later on the floor if we need to. But if anybody has any 
questions or comments--but thank you very much for coming to be 
with us today. You are free to go.
    Our next witness will be the honorable Christopher Shays. 
Chris, we are pleased to have you with us, and you may proceed.

 STATEMENT OF THE HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. Shays. Thank you, Chairman Duncan, and Ranking Member 
Johnson, and all the members. This is a hardworking committee, 
and I will summarize and let your staff do the kind of 
background they need to on my requests.
    I have three project requests:
    One is we would like you to consider correcting a problem 
with the authorization in section 345 of the Water Resources 
Development Act. This act requires a 35 percent nonFederal 
share typically. It requires a 35 percent nonFederal share of 
innovative methods of dredging disposable material. Basically 
dredging is covered 100 percent, so this is almost discouraging 
our community to go with a more innovative, active approach, 
because you end up having to pay the 35 percent. If your folks 
would look at that, that would be helpful.
    Second, I have a request from the Fairfield Harbor 
Management Commission. They would like to redesign the existing 
Federal navigation project in Southport. Basically, they would 
like to relocate the current boundary between the 9-foot 
Federal anchorage and the 9-foot Federal channel to 
approximately 850 feet downstream from its current position; in 
other words, approximately 850 feet of the existing navigation 
channel will become part of the 9-foot Federal anchorage.
    Third, the Bridgeport Port Authority again would like to 
narrow the authorized Yellow Mill River channel from 200 feet 
to 150 feet.
    We are providing water-dependent activities in our harbor, 
and the Derecktor Shipyards has a major complex there, and 
shortening this by 50 feet would enable them to carry out and 
do their job. It is my understanding that both the requests of 
the Fairfield Commission and the Bridgeport Port Authority, 
both of these requests have been supported by the Army Corps of 
Engineers.
    Thank you very much.
    Mr. Duncan. Thank you very much, Mr. Shays. Those sound 
like very important and worthwhile projects. Thank you very 
much.
    We have now been joined by Dr. Boozman and Mr. Osborne. Dr. 
Boozman, do you have any statement or comment that you wish to 
make at this time?
    Mr. Boozman. I really don't have a statement. At some point 
I would like to address two or three projects.
    Mr. Duncan. Go right ahead.
    Mr. Boozman. Thank you. I won't take a lot of time. I have 
been working with you and staff, you know, about these things. 
But I really have two or three things that are really important 
in our area; you know, really have looked for projects that we 
feel like are very important.
    One of the problems that we have--it is not really a 
problem--but we are in a very rapidlygrowing area of the 
country. We are probably the fifth, sixth, fastest-growing 
region in the country. With many other areas, water has become 
a real problem. So one of the problems that we would like to do 
is take and dam up part of Lee Creek on Pine Mountain. 
Certainly that would provide a good deal of water, you know, 
for many years to come, and for many other reasons: flood 
control, recreation, fish and wildlife enhancement.
    One of the other projects that we have worked hard to get 
authorized is a minimum flow initiative. Arkansas is blessed 
with a great deal of scenery and things, and has really become 
one of the better trout fishing areas in the country.
    One of the problems that we have is the water coming 
through the turbines on the dam. You know, one day they are 
generating, the next day they are not. Sometimes you are being 
swept away by the water, sometimes you are not.
    So we have worked really hard with the Corps. We have 
worked with our power producers and things to kind of negotiate 
how we would like to do that, and have really reached agreement 
there.
    So those are the main things. One other thing, I mentioned 
this the other day in the hearing to the General as he was over 
here--we have a power--I guess a power plan on the Ozark lock 
and dam. You know, the turbines and things, they were designed 
in an area where they weren't, many years ago, where they were 
just inefficient.
    Now they don't work, and we have got a tremendous amount of 
power potential that is just being wasted for a minimal amount 
of money, you know. We can get that up and running.
    But we have a situation now where so much, you know, we 
have concerns of global warming, you know, things like that. 
This is such a clean form of energy, whereas the alternative is 
to use a coal-fired or a natural gas-fired production of 
energy. So that is another project that we would like to look 
at. So thank you very much.
    Mr. Duncan. All right. Thank you, Dr. Boozman.
    Mr. Osborne.
    Mr. Osborne. Just a real brief comment. Those of us who 
reside in the Plains States are generally pleased with the 
accommodation the Corps and the Fish and Wildlife Service have 
reached on the Missouri River. It seemed like a pretty good 
adaptation of conservation practices, and preserving the 
endangered species, plus flows in the river. So we want to make 
sure that that is in the WRDA agreement and we certainly 
appreciate the work that has been done there. But other than 
that, I have no further comments.
    Mr. Duncan. All right. Well, thank you very much. As I said 
earlier, we have about, I guess, about 400 or more requests for 
projects in the bill. We had 15 Members who requested that they 
be allowed to testify here in person this morning, but we have 
got several of them running late. So we will be in a brief 
recess.
    Mr. Boozman. Mr. Chairman, does this mean that those of us 
who showed up will--
    Mr. Duncan. Yes, those of you who showed up, your projects 
will definitely be included.
    Mr. Duncan. All right.
    [Recess.]
    Mr. Duncan. All right. We will go back into session. There 
are a couple of other members on their way. We are pleased at 
this time to give Mr. Oberstar a chance to get his breath, and 
we will hear the testimony from the honorable Frank Pallone.
    Mr. Duncan. Frank, we are pleased to have you with us and 
you may proceed and make your statement.

 STATEMENT OF THE HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I can't help but 
remember when I came to this room and I used to be on the 
committee--I hate to say how long ago it is now, I think it was 
13 years now when I was last on the committee--and I would see 
my predecessors up there, Congressman Jim Howard and 
Congressman Bob Roe, both of whom I had such great respect for 
over the years.
    I just wanted to talk to you about four projects under 
WRDA, if you would consider for authorization, each of which is 
in my district, and essentially along the coastal part of New 
Jersey. One is authorization of the South River Flood Damage 
Restoration and Ecosystem Restoration Project. I call it the 
South River Dam Project. Basically, it was the result of the 
1993 storm, which was about the worst storm that hit New Jersey 
in a long time. That is over 10 years ago now, and we have 
moved forward with various stages, you know, for the design and 
the reconnaissance and all that on the project. The chief's 
report has been completed. There is a design agreement that has 
already been executed. The total cost is over $1 million. And 
so I would hope that you would consider that for authorization 
in WRDA.
    The second one is Union Beach. This is one of the flood 
control and shore protection projects. It is a very low-lying 
area on the Raritan Bay, across from the City of New York. 
Again, looking back to the 1992 or 1993 storm when we had 
terrible conditions there, a lot of flooding--and, again, a 
chief's report is expected within the next month or two on that 
project, after which the Corps will execute a design agreement 
with a local sponsor. That is a $97 million project, and, 
again, very important to my district and the State of New 
Jersey.
    The third project is a little different. It is called the 
Marlboro Township Watershed Project. It is something that 
Congressman Holt and I are requesting together of the 
subcommittee. This is an innovative program developed by the 
Corps' New York district office as part of an effort to involve 
smaller communities and constituencies that don't have the 
resources to develop a multistage Federal project.
     It is based on a successful effort at Lake Champlain in 
Vermont and New York where the Corps set up the framework with 
a lot of local communities to implement small watershed 
restoration projects without getting repeated authorizations or 
funding from Congress. Again, if you would consider that, I 
would certainly appreciate it. It is a very innovative program, 
and it is shared by myself and Congressman Holt.
    Finally, on a programmatic note, I wanted to request that 
WRDA include modifications to annual funding limits on the 
Continuing Authority Program, the CAP program. These CAP funds 
which are, you know, small funds really, not a lot of money, 
small projects, but they are vitally important to communities 
across New Jersey. We have a lot of very small communities in 
our State, and the CAP programs have frequently been 
oversubscribed. So I am urging you to increase the ceiling on 
section 205, the Small Flood Control Projects, section 206, 
Aquatic Ecosystems Restoration, and section 1135, Environmental 
Improvement Projects, to 75 million. I would also like to see 
the ceiling increased to 20 million on section 14, Emergency 
Stream Bank Protection, and to 50 million for section 107, 
Small Projects for Navigation. I personally in my district have 
relied on the CAP program quite a bit, and I think it is time 
that we see some increases in the authorization level.
    Thank you again for all you do. I know how important these 
and other projects are to my district. I appreciate the time 
that you spend and the fact that you give us an opportunity to 
testify.
    Thank you.
    Mr. Duncan. Well, Frank, thank you. Frank and I were sworn 
into Congress on the day after the election in 1988, and 
because of alphabetical order I have always been one number 
higher. But now you are talking about moving possibly to the 
Senate, I see.
    Mr. Pallone. Well, we will see. We have a Governor's race 
we have to get over first in New Jersey, but it looks good.
    Mr. Duncan. All right. Well, thank you very much.
    We are always pleased to have the Ranking Member of the 
full committee, Mr. Oberstar here. No one knows the work of 
this committee, I don't think, any better than Mr. Oberstar.
    Mr. Oberstar, we will call on you for any comments or 
statements that you wish to make at this time.
    Mr. Oberstar. Thank you very much, Mr. Chairman for those 
gracious words. I greatly appreciate your leadership, 
previously on the Aviation Subcommittee, and now in Water 
Resources, where you have given your characteristic judicial 
and thoughtful consideration to the subject matter before the 
committee, and we are grateful for the leadership you have 
demonstrated.
    This marks about 42 years that I have served on this 
committee as a staff member and as a Member of Congress. I 
worked with every one of the members portrayed in the portraits 
around this room. Never have we gone this long without a Water 
Resources Development Act being enacted into law and 
implemented for the good of the country.
    The earliest charge of the Constitution was to the 
Congress, to this committee, to the first committee of the U.S. 
House, to build post roads and to develop the internal 
waterways and navigation system of the Nation. Seventy-five 
percent of the population in the country lives along the water. 
Most of our Nation's major cities were ports before they were 
major cities. Only two major metropolitan areas in the country 
are not located along a waterway.
    It is the most vital responsibility in this country to 
develop the most energy-efficient and the most economical means 
of moving goods. We once also moved people by this most 
efficient means, the waterways.
    Now you, Mr. Chairman, and the Chairman of the full 
committee, Mr. Young and I and the rest of us, have done our 
job. We have reported dutifully the necessary legislation to 
invest in America's water resources development. But the other 
body has failed to come to a resolution. We haven't even gotten 
the conference.
    We welcome and are grateful for the testimony of our 
colleagues. I enjoin each of them to appeal to their Senators 
to move this legislation. Let us not get bogged down on 
nitpicking issues--some of which are very important--but in the 
fine details; we could have had these matters resolved in the 
conference, got the bill enacted, and be attending to the 
appropriations yesterday.
    Just by accident, I happened to see our former colleague, 
John Myers from Indiana, Mr. Chairman, former ranking 
Republican on the Water and Energy Appropriations Subcommittee. 
We spent a good deal of time lamenting the inability to move 
this legislation through the other body and how the comity and 
reciprocity of earlier years resulted in successful 
legislation.
    I don't know of a Republican levee or a Democratic lock or 
any other partisan piece of our waterways. They are all 
American investments. We have got to make those investments for 
the good of this country and move our goods in this country and 
keep our economy competitive.
    So I welcome the testimony of our witnesses, and I urge 
them to reach across the gulf between this and the other body 
and help us get this legislation enacted.
    We can move it through the House, but we are not going to 
be able to invest in America if the other body doesn't 
cooperate with us. The Columbia River Channel needs to be 
dredged 45, even 50, feet. It is the second-most important 
grain export artery in America. For wheat, that locks and dams 
on the Mississippi River are--with the exception of Lock and 
Dam 26--stuck to the largest lock in the 1930s. Tolls have to 
be broken up, costing as much as 8 to 12 hours delay, and huge 
costs with container vessels calling in our ports with the 
Chinese Shipping Company now moving to 9,000 container-sized 
vessels. The only two ports they can put in the United States 
are on the West Coast.
    Because of the lack of capacity in our rail systems, those 
cargos have to be broken up on smaller ships and moved through 
the Panama Canal, the Gulf, and up the East Coast waterways. We 
need to deepen our East Coast ports, we need to deepen the Gulf 
ports. We have got to invest in the America waterway. We have 
got to move America ahead. That's the purpose of this 
committee, and I thank you very much, Mr. Chairman.
    Mr. Duncan. Thank you, Mr. Oberstar.
    As you know, we did pass the WRDA bill in the House, 
although we do have to get some action out of the Senate.
    Mr. Pallone, we don't normally ask Members questions in 
this subcommittee because we know you have such a busy schedule 
and we will have a chance to talk to you about these things on 
the floor, unless somebody just calls that to my attention. So 
we will let you go, and our colleague, Dana Rohrabacher, is 
next.
    Mr. Pallone. Thank you.
    Mr. Duncan. Dana, you go ahead with your statement.

  STATEMENT OF THE HON. DANA ROHRABACHER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Rohrabacher. Thank you, Mr. Chairman, and Ranking 
Member, and Mr. Oberstar, of course.
    There is a second item I am talking about that I am very 
pleased you are here to listen to because I haven't had a 
chance to talk to you personally about it, but I think it is 
something you would be interested in and the whole committee 
would be interested in.
    Mr. Chairman, I thank you for the opportunity to testify 
today. There are two items I wish to address: a stormwater 
infrastructure project at Huntington Beach, California, and, 
second of all, a legislative provision which will provide a 
better way of improving port infrastructure.
    In Huntington Beach, California, the stormwater 
infrastructure is, in many cases, over 40 years old and badly 
in need of improvement or replacement. This last February, 
California suffered through what experts call a 100-year flood 
event, and it was to be a whole lot of rain. I sat on my front 
porch and watched it rain for days and days in California. That 
does not happen very often. While the flood control systems did 
work and they did their job, it was evident, however, that 
there is still a major challenge that we face in my area in 
southern California.
    The storm exposed southern California's inability to 
control urban runoff in storm conditions. The current 
infrastructure, obviously, could not protect Huntington Beach 
from health-threatening pollutants carried downstream with 
rainwater. Sewage pump stations were overwhelmed by the volume 
of water. Some of them simply shut down due to power loss, 
causing millions of gallons of untreated wastewater to be 
released into the rivers and ultimately into the Pacific ocean, 
fouling the water for days and weeks and contributing to a 
health problem, or at least a health threat, to the people who 
live on the coast.
    Clearly, we need to vastly improve the water infrastructure 
that we have. Huntington Beach and other surrounding areas sit 
like a narrow funnel at the end of three rivers in a vast 
network of drainage channels, where polluted urban runoff from 
hundreds of square miles consolidate right there at the coast. 
The dynamics of this system assure that if a downstream system 
in Huntington Beach fails, then massive amounts of polluted 
urban runoff and raw sewage from all over southern California 
are dumped right into our coastal waters.
    Stormwater infrastructure repair and upgrade in Huntington 
Beach will remedy this situation. Specifically, the addition of 
pump stations, increasing the capacity of existing facilities 
and improving stormwater conveyance will provide the residents 
of Huntington Beach, and, as I say, all of southern California, 
the safeguards needed for flood protection and the delivery of 
clean drinking water and the preservation of the cleanliness of 
our Pacific coastline. For these reasons, I urge the inclusion 
of this request in the WRDA bill.
    This leads to the second part of my testimony, which is 
basically a suggestion that I have--and, as I say, I am glad 
Mr. Oberstar is here, because it goes to a fundamental reform 
that I would like to see considered here in Congress. As 
Members of Congress, any one of us can identify hundreds of 
projects that are worthy of support by this Congress. Just as I 
have been here testifying, there are billions of dollars that 
could be spent in worthy endeavors, yet we struggle to come up 
with the money.
    Somehow, along the way, Congress has stopped asking, you 
know, how are we going to pay for these things, these 
improvements. Well, that has to be part of the question today, 
because we know we don't have the resources to take care of all 
of these things. The Federal Government is currently running a 
deficit in the neighborhood of half a trillion dollars a year. 
Thus, we need some creative approaches to finding new sources 
of revenue.
    It is against this reality that I request the provisions of 
my bill, H.R. 494, be included in the WRDA bill, and this 
allows U.S. ports to levy fees on a per-container basis, and 
that money would then be available for the projects that we are 
talking about, and this would be included in a WRDA bill. Our 
Nation's ports are among our Nation's most significant 
infrastructure assets. The ports of Los Angeles and Long Beach, 
for example--and those are in my district--handle nearly half 
the goods imported in the United States. Trillions of dollars' 
worth of foreign-manufactured goods are transported through our 
ports and into the American market in order to compete with 
domesticallymanufactured products.
    Yet, almost without a question, we continue to appropriate 
money for the expansion, upkeep, and maintenance of these 
facilities. We are essentially subsidizing the companies in 
China and in the rest of the world so they can move their ships 
and their goods more easily to our shores while domestic 
companies are being taxed to pay for the bill.
    This is a bitter irony to many embattled American 
manufacturers, that their tax dollars have paid for the 
transportation costs of their foreign competition. This 
amendment which I am suggesting today will allow ports like 
those in Long Beach and Los Angeles to levy a fee on each 
container that is processed by those facilities. This is just 
containers; this isn't shiploads and other things, this is a 
container fee.
    By the way, there are no container fees now. We are picking 
up the entire cost, our taxpayers, of shipping these containers 
through the system that we built for them. The proceeds from 
this fee must be used for the security and infrastructure 
improvements at the port, alleviating at least a portion of the 
Federal burden of these improvements.
    This provision is a true user's fee. It permits the port 
facilities to charge people or receive the benefit, which is 
access to our markets with their goods. I am in favor of a 
vigorous free-market strategy, but a free-market philosophy 
does not require the United States, to our own detriment, to 
subsidize, access to foreign companies to our market.
    These Federal subsidies to the Nation's ports often benefit 
companies that employ slave labor, like in China; and 
basically, some of these containers rewarded with goods are 
manufactured by companies that are in partnership with the 
Chinese People's Liberation Army.
    I say we should not be subsidizing this, and this money 
instead should be made available to work on these capital 
programs. So this is not good form to permit the current 
situation.
    I am losing my voice. But let me just say that having a 
port fee also is a self-regulating authority, because if ports 
charge too much, they will lose customers, so it is a market-
based concept.
    I would ask--before I lose my voice, I will submit it for 
the record and hope that you would consider this creative 
alternative.
    Mr. Duncan. A very good proposal.
    Mr. Oberstar.
    Mr. Oberstar. Mr. Chairman, I would like to engage the 
gentleman. He is losing his voice, he doesn't have to respond. 
Your testimony is prescient. However, the idea of a container 
fee was one that I advanced 4 years ago in consideration of the 
Port Security Act.
    The Senator from South Carolina, Senator Hollings, joined 
with me in the House-Senate conference. We had a majority of 
conferees in support of a container fee whose proceeds to be 
used exclusively for security needs at ports--not for 
equipment, not for trains, not for truck, or any other kind--
but a true fee, a charge imposed to support the service for 
what the charge is imposed. The White House vigorously opposed 
it.
    In order to get the security bill, the port security bill 
passed, Senator Hollings and I agreed to withdraw on 
representations for the White House that that would work. "they 
were called to work with us," close quote, to reach a financing 
mechanism. Never did. It hasn't happened.
    Mr. Rohrabacher. Well, I am looking forward to working with 
you.
    Mr. Oberstar. I know that the gentleman has great access to 
the White House, and I would encourage him to use his good 
offices to prevail upon those who may reason rightly at the 
White House and work with us to develop a container fee.
    There are more than 11 million containers entering the 
United States each year; $365 billion of goods come into 
California ports for distribution, 70 percent of which goes to 
the rest of the United States. China is engaged right now in a 
$200 billion investment program, doubling the capacity of their 
ports. We can do no less. And I think that the container fee, 
divided among the security needs and port infrastructure needs, 
would be a splendid resolution.
    Mr. Rohrabacher. Well, I appreciate--
    Mr. Oberstar. We have also tried in the past, though, I 
would advise my colleague--in fact, is it the gentleman, Mr. 
Roe, former chairman of the full committee--to use part of the 
customs duties, 95 percent of which are collected at U.S. 
ports, for port development. That has always been vigorously 
opposed. The container fee is of a different nature.
    Mr. Rohrabacher. Mr. Chairman, I see this is a bipartisan 
issue.
    Mr. Duncan. It is something we will take a look at it. We 
will go into more detail at another time. We have many other 
Members who wish to testify.
    Thank you very much, Dana. Everyone's full statements will 
be placed in the record. So you can summarize.
    Mr. Duncan. Next is Mike Castle; our friend, Mike Castle. 
Mr. Castle, I notice that you have got like 10 requests. We 
will help you all we can, but if we put that many requests in 
there, we will have to name this bill after you.
    Mr. Castle. I sort of suspect that is not going to happen, 
Mr. Chairman.

 STATEMENT OF THE HON. MICHAEL N. CASTLE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF DELAWARE

    Mr. Castle. Mr. Chairman and Ms. Johnson, I am only going 
to talk about one of my requests. I do thank all of you for 
being here today to give me an opportunity to talk to me about 
my water resources projects in Delaware. As I have indicated, I 
have elaborated on only one here, although we have other 
requests which are in it. The one I want to talk about is the 
creating of a recreational area surrounding the Chesapeake and 
Delaware Canal.
    The Chesapeake and Delaware Canal runs 14 miles from 
Delaware City on the Delaware River to Chesapeake City on the 
Chesapeake Bay, and is one of two commercially vital canals in 
the United States. The history, the wildlife, and the scenic 
views and the bridges of the canal are all great attractions.
    A similar venue, the Army Corps-operated Cape Cod Canal, 
has served as a model for us to follow creating this new vision 
for the C&D Canal. I have toured the grounds of Cape Cod, and I 
believe the C&D has similar potential. It is also owned by the 
Army Corps of Engineers.
    Mr. Chairman last year Chairman Hoekstra appropriated 
$150,000 in the energy and water appropriations bill to develop 
a master plan or blueprint for various recreational 
opportunities that exist along this unique canal.
    Reflecting widespread support for this project, the 
Delaware Department of Transportation, the Delaware Department 
of Environmental and Natural Resources, and Delaware County of 
Newcastle each pledged $50,000, matching the current Federal 
contribution of $150,000. State agencies and organizations are 
currently compiling the capabilities of the land. It is the 
priority of all partners to maintain the wetlands and wildlife 
and natural infrastructure of this land.
    With this information, we will conduct two public workshops 
currently scheduled for next month, April. The C&D team will 
hold these community workshops, both in Delaware and Maryland, 
in order to incorporate the recreational demands of the 
surrounding communities into the master plan. Based on 
community views, the top recreational options for the canal 
will be presented from October of 2005. By December the master 
plan will outline the steps to tap into the full recreational, 
cultural and historical and environmental value of the C&D 
Canal.
    To assist in the creation of a recreational area 
surrounding the Chesapeake and Delaware Canal, I respectfully 
request that construction authorization be granted to the Army 
Corps to begin construction on the Corps-owned land along the 
C&D canal. Wtih its authorization, Delaware and Maryland may 
share in the stewardship of the land with the Army Corps of 
Engineers. Together we can work to realize the full 
recreational, educational, and environmental value along the 
C&D canal. I have seen firsthand there is great support, 
unanimous support, I might add, within the States of Delaware 
and Maryland. I truly believe the entire mid-Atlantic region 
can benefit from recreational development of the C&D Canal.
    I thank you for your consideration. I would just point out, 
all of this is about 2 hours from here so all the members of 
the committee, all the staff here, could enjoy the benefit of 
this if we get it done.
    Mr. Duncan. Thank you very much. A very reasonable request. 
We will try to work with you all we can.
    I would like to apologize to the members. We have votes 
starting. We will let everyone else go except Congressman 
Foley. We have time to get your statement in. The rest of you 
we will do when we come back from the votes.
    Mr. Foley, you can begin yours.

STATEMENT OF THE HON. MARK FOLEY, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Foley. Thank you very much Mr. Chairman, members of the 
subcommittee. I want to thank you for holding this hearing on 
the Water Resource Development Act. It is extremely important 
that I come before you today and respectfully request that the 
Indian River Lagoon South, the IRL, be included in this year's 
Water Resources Development Act.
    The IRL is the first Comprehensive Everglades Restoration 
Plan project requiring congressional authorization. When 
Congress passed CERP, we reaffirmed the Nation's commitment to 
America's most imperiled national treasure, the Everglades.
    For almost 45 years, there has been a steady stream of 
clear and compelling scientific data detailing the perilous 
state of the Everglades. There are unnatural levels of fresh 
water in our estuaries, lesions on our fish, deposits of muck 
and phosphorous in our lakes and canals, and the decline of 
wading birds. I have some sampling material here to show you 
what is exactly finding its way into our beautiful Everglades 
that needs immediate attention.
    CERP represented a historic partnership between all 
stakeholders. Finally, Florida agricultural interests, the 
Administration, utilities, the State of Florida, Indian Tribes, 
and environmental groups came together in an unprecedented show 
of cooperation to develop a plan that would protect and 
preserve our ecosystem. It built upon the initial commitment we 
as Congress made, at my request, to provide 200 million in 
Federal funds for Florida's Everglades restoration efforts back 
in the 1996 farm bill.
    The Indian River Lagoon is a 156-mile long estuary located 
at the mouth of the St. Lucie River in Martin County, Florida, 
which is part of my district. It is home to more than 4,300 
species of plants and animals, and supports an annual economic 
contribution of more than $730 million.
    Mr. Chairman, we are now at a crossroads and timing is 
critical. The Indian River Lagoon Plan-South is responsible for 
critically addressing environmental abuses visited on the St. 
Lucie River, the Indian River Lagoon, and Lake Okeechobee by 
the old Central and Southern Florida Flood Control Project.
    A favorable Chief of Engineers Report was issued on August 
6th of 2004. The formal review by the Department of the Army is 
nearing completion. Last year the Senate division of WRDA 
included the IRL, but Congress adjourned before there was an 
opportunity to work out differences with the House version. 
When the House WRDA bill passed in the Congress, IRL was not 
ready for inclusion in that legislation. It is now.
    And my constituents of Martin County have been extremely 
instrumental in their support of the project. Not only did they 
organize numerous rallies and write thousands of support 
letters, but they also voted for a 3-year $0.01 sales tax on 
themselves to contribute over 50 million in revenue for the 
plan itself.
    The U.S. Army Corps of Engineers, Jacksonville District, 
did a tremendous job working in conjunction with its partner, 
the South Florida Water Management District, finishing the 
final project implementation report for the IRL last year. I 
would like to commend Colonel Carpenter and Henry Dean, 
executive director of South Florida Water Management District, 
and their staffs, for their incredibly hard work.
    Mr. Chairman, we cannot wait one moment longer to authorize 
this project. It needs to occur this year. The success of CERP 
depends upon it, and I believe we should not falter in our 
commitment to it. I thank the Chairman for his indulgence and 
the opportunity to speak today.
    Mr. Duncan. Well, Mark, yours is a very important project. 
It is one of the three biggest or most expensive in this bill. 
We have already gotten word from the White House that they are 
wanting us to try to hold down some of the costs, or they have 
expressed some concerns about that. But we will try to work 
with you. You work with the White House, though, some too.
    Mr. Foley. And I will be working with Governor Bush, who 
happens to have a relative living there at 1600 Pennsylvania 
Avenue.
    Mr. Duncan. All right. Thank you very much. We will be in 
recess for these votes.
    [Recess.]
    Mr. Fortuno. [Presiding] Good afternoon, we are coming back 
to order. The Chair will recognize for 5 minutes Mr. Carnahan 
to make a statement. Are you ready for that.
    Mr. Carnahan. Yes.
    Mr. Fortuno. Please do so.

   STATEMENT OF THE HON. RUSS CARNAHAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MISSOURI

    Mr. Carnahan. Thank you, Mr. Chairman, and fellow members 
of the committee. I am pleased to be here today. I want to--I 
am fortunate to have leadership here in the committee that 
recognizes the importance of these projects to our country and 
to our districts back home.
    The district that I represent borders the Mississippi 
River, and our city is at the confluence of the Missouri and 
Mississippi Rivers, so rivers and water resources are very 
critical and important to our region.
    The economic and environmental health of the river, the 
riverfront, are of utmost importance. That is why I requested 
the St. Louis Regional Greenways Proposal as part of the WRDA 
hearing today. This proposal is a broad-reaching attempt to 
improve the quality of life of St. Louis and the people of our 
State by developing the greenways and natural areas connected 
by parks and trails.
    The proposal is an authorization request for Corps of 
Engineers projects included in eight local greenway plans, 
including projects in the city of St. Louis and St. Louis 
County, as well as counties in several other of my colleagues' 
districts. The project has many environmental benefits that 
will conserve natural resources such as improving water quality 
in our waterways, preserving open space and protecting natural 
wildlife habitat.
    It will also improve public and disabled access to parks, 
open space, and waterways.
    In addition to the environmental impact, the development of 
these greenways will also boost economic activity. The realized 
benefits will include creating new outdoor recreation 
opportunities and will attract large numbers of new tourists. 
Further, we believe that the project will stimulate new 
commercial and residential development, as well as attract new 
businesses resulting in the creation of both new jobs and new 
residents.
    We have seen prior developments of these areas have also 
been a big factor in turning around the population decline in 
the city of St. Louis that recently announced, for the first 
time in 50 years, that the population had begun to increase in 
our city.
    The proposal has very strong regional support from all 
areas of the community. Local government and nonprofit groups, 
area business leaders, are collectively in support of the 
greenways development. This is shown by the fact that we 
already have more than $75 million in State and local public, 
private, and nonprofit investment in projects that are part of 
the local plans included in the St. Louis Regional Greenway 
Proposal.
    Now let me turn to the specifics of the overall plan. The 
greenway plans are focused on preserving open space and natural 
wildlife habitat, improving the water quality of our rivers and 
streams, and for providing outdoor recreation opportunities. To 
achieve these goals, to fully develop a regional greenway 
system, the proposal allows local government and nonprofits to 
partner with the Corps on several different projects. One of 
the most important will involve the restoration of fish and 
wildlife habitat. We will also see an improvement to public 
access to the Mississippi and Missouri Rivers, as well as other 
rivers, streams and waterways in our region.
    In addition, there will be development of aquatic 
recreation areas and waterways, as well as regional trails and 
other connectors to link these greenway improvements.
    I would like to highlight two of the projects that could 
result from this bill. First, is Chouteau Lake and Greenway. 
Through this we will see the development of the waterway and 
surrounding greenway system, which will be the focal point of 
the city of St. Louis. The Chouteau Lake system will partially 
restore an urban stream and watershed dating back to the pre-
industrial era. The greenway will act as a filter and cleansing 
system for stormwater running and draining into the lake 
system.
    Another project I would like to share with you is the River 
des Peres Greenway. Currently this River des Peres area looks 
like a giant concrete ditch, but this project will reconstruct 
the River des Peres Greenway from the Mississippi River to Deer 
Creek . This greenway development would include environmental 
restoration and park projects along the new trail throughout 
the greenway.
    I want to thank the committee and its members and its 
leadership for their time and consideration.
    Thank you, Mr. Chairman.
    Mr. Fortuno. Thank you, Mr. Carnahan.
    We will proceed in the order in which the members arrived 
today, as requested by the staff. That would mean, if that is 
okay with you all.
    The next one will be Mr. Jindal from Louisiana. Mr. Jindal, 
you have 5 minutes.

    STATEMENT OF THE HON. BOBBY JINDAL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Jindal. Thank you, Mr. Chairman, I also want to thank 
Chairman Duncan and the entire subcommittee for allowing me to 
appear today.
    I come to talk about an issue of great importance not only 
to my home State, but also I think our entire country, and that 
issue is coastal erosion. It is not just a problem for 
Louisiana, it is a problem that if we leave it unchecked, the 
cultural, economic, and environmental implications would be 
devastating, again, not only for Louisiana but for the United 
States and for the world.
    This committee has taken action before, and I am here to 
urge you to take additional steps, even more aggressive steps 
in confronting this challenge. Through a combination of 
wetlands disintegration, barrier-island erosion, sea level rise 
and land subsidence, my own State is losing 25 to 30 square 
miles of coast land every year. Every year we are losing 25 to 
30 square miles of coast land.
    The southern quarter of Louisiana is disappearing at an 
alarming rate, the equivalent of nearly two football fields of 
land, every hour, 365 days a year. Louisiana has lost nearly 
1,500 square miles of coast over the last 50 years. We will 
lose another astonishing 1,000 square miles in the next 50 
years if we don't adopt aggressive corrective measures now. 
That is an area larger than the size of the State of Rhode 
Island, the direct impact of coastal erosion.
    As we continue to lose our coastal wetlands, they continue 
to be eroded. As our communities continue to continuing to 
lower levels, the risk of the overwhelming damage from storms, 
from hurricanes, will only increase. I myself had to evacuate 
my own home this past year for fear of a hurricane coming up 
the Mississippi River.
    Already coastal Louisiana towns like Leeville and others 
are flooded from relatively small storms that would have had 
very minimal impact just 20 years ago. New Orleans, which is 
already at an elevated risk from hurricanes, is experiencing an 
increased level of risks every year if this problem is not 
addressed. Houma, Lafayette, Lake Charles, and many other 
cities and towns below Interstate 10 aren't far behind.
    Without a significant slowdown in the rate of coastal land 
loss, many of our families will lose homes and land that have 
been in their families for generations. Many of our 
grandchildren will never be able to see where their 
grandparents grew up, because entire towns will be underwater.
    Even more important to homeowners, we are going to see 
property insurance rates continue to skyrocket in towns across 
coastal Louisiana. The impact of coastal erosion on our economy 
cannot be overstated. I don't mean Louisiana's economy, but the 
Nation's economy. Roughly 20 to 25 percent of the country's oil 
and natural gas flow through our coastline, much of it through 
pipelines and other infrastructure that has not been designed 
to withstand open water constructions. With further erosion for 
wetlands, this infrastructure will be placed at an increasingly 
high level of risk of damage from severe weather.
    Our Nation would share that economic loss in the form of 
higher gasoline and natural gas prices, less energy security, 
and billions of dollars for disaster recovery. Already, FEMA 
routinely spends hundreds of billions of dollars to salvage 
these Louisiana towns--recover from hurricanes and floods.
    The result is economic catastrophe for our State and our 
Nation, which will lead to much higher gasoline and natural gas 
prices, severe damage to our petrochemical industry, and the 
loss of much of our State's $20 billion oil and gas export 
business.
    We have all been impacted by the rising cost of energy. 
These storms, these hurricanes, will only increase that cost. 
Commercial and recreational fishing along our coastline, 
including shellfish and fin fish, will also be at risk. That 
currently represents 30 percent of our Nation's fisheries' 
catch. As the Gulf of Mexico and its saltwater encroach into 
freshwater marshes, we will lose many of these grounds forever. 
Sport fishing, which is a huge part of our tourism industry, 
could also collapse.
    I want to turn to the environmental impact. The 
environmental value of our coastal areas is significant 
worldwide. The ecological significance of our wetlands, of our 
marshes, is also suffering from continued rapid coastal land 
loss. These resources can't be replaced if lost. Increased oil 
spills are likely, due to the exposed infrastructure, delicate 
ecosystems, that will be disrupted by salinity, increased wave 
action. These are ecosystems that provide the wintering habitat 
for many migratory birds. These will continue to be gradually 
eliminated, decreasing bird populations across northern 
America.
    There is much that Congress can do, much that this 
committee can do. We would ask that saving our coast to become 
one of the highest, not only economic, but environmental 
priorities of our Nation.
    Off of our coast, over $5 billion a year is generated for 
the Federal Treasury, due to off-coast drilling exploration for 
oil, and we think that some of these moneys should continue to 
be reinvested in restoring and preserving our coast. Current 
estimates of a 20- to 30-year plan put the cost at $14 billion. 
There are signs that many of our efforts have worked through 
use of sediment materials and shoreline and protection.
    We have many requests before this committee. I am just here 
to urge you to continue to help our State. It is important for 
Louisiana and preserving our coast. It is also important for 
preserving our Nation.
    Thank you Mr. Chairman.
    Mr. Fortuno. Thank you, Mr. Jindal.
    Going down our list, the next one will be Ms. Miller.

   STATEMENT OF THE HON. CANDICE MILLER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mrs. Miller. Thank you, Mr. Chairman, to have the 
opportunity to meet with the committee today. I appreciate your 
interest in my particular request, and I ask the committee for 
consideration.
    I do have a statement. I will, without objection, just put 
it into the record and try to summarize here what the request 
is that I lay before the committee today.
    I am from the State of Michigan, also known as the Great 
Lakes State. It is great in Michigan, because you always have a 
map of your State on the end of your arm. We always hold up a 
mitten and say, "We live here, we are here, we are here." but 
the Great Lakes, of course, comprising fully one-fifth of the 
fresh water supply of the entire planet--of the entire planet--
is a huge economic impetus for us; it is our very identity, it 
is everything to us.
    In the 1960s--I think 1964--the United States Army Corps of 
Engineers undertook a huge dredging operation in the St. Clair 
River, which is a river that goes between Lake Huron, Lake St. 
Claire, out into Lake Erie. They did this with an idea of 
opening up the upper Great Lakes for shipping. It has worked 
extraordinarily well.
    However, there has been a theory bouncing around for years. 
Recently the theory has been solidified by a very highly 
regarded coastal engineering firm called Baird & Associates out 
of Canada, who have undertaken a study--and the theory now is 
manifesting itself in some very strong language. It says 
because of the dredging in the 1960s and subsequent years, 
erosion and other dredging projects have happened in the St. 
Clair River, that has essentially pulled the drain plug in a 
bathtub on two of the Great Lakes, and those lakes are Huron 
and Michigan.
    So even though we have had a great amount of precipitation 
in the last year or so, and the cycle now is to raise the lake 
levels, that is happening everywhere except these two lakes, 
Lake Michigan and Lake Huron, which are actually experiencing a 
much lower-than-average lake level. Of course, this is having a 
huge impact.
    And so my request is for $2.5 million, which would be to 
the United States Army Corps of Engineers and the International 
Joint Commission, the IJC, because we do believe you would have 
to have Canadian involvement to actually create a 3D model of 
the St. Clair River. You know, if you are doing aeronautical 
engineering studies, you are using wind-tunneling. In the case 
of trying to understand how water is transiting, certainly a 3-
D model would be extremely helpful.
    If this theory is correct, it is imperative we understand 
whether it is happening or not. If you want to interpolate what 
they are saying, it would be 845 gallons of water that is 
actually being diverted and lost every day, just going out into 
the Atlantic Ocean.
    If you can think about the cost of one of these bottles of 
water and then think about 845 million gallons of fresh water 
that is being lost each and every day, it obviously is 
something that is not just impacting a particular congressional 
district or even a particular State. It is a regional--a 
project of regional and national significance, and I certainly 
would ask the committee to give every consideration for this 
very reasonable request. I appreciate the time.
    Thank you, Mr. Chairman.
    Mr. Fortuno. Thank you very much.
    If the other two members, if it would be okay with you, 
Mrs. Norton, who is a member of the committee, would like to 
make her statement. Ms. Norton, I will have to step out for a 
second for a vote. But if you can make your statement.
    If for any reason I or somebody else in the committee is 
not here, we will have to have a recess so I can rush back. It 
is right here in the same hallway, but I just have to go back 
over there and vote.

  STATEMENT OF THE HON. ELEANOR HOLMES NORTON, A DELEGATE IN 
            CONGRESS, FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you, Mr. Chairman.
    I will certainly wait until you return. I appreciate that 
the committee has given members the opportunity to come forward 
and explain these projects so that we can understand what we 
are doing. I understand it very personally, because the Federal 
Government is the largest user of many of our utilities, 
including the combined sewer system that was built 162 years 
ago by the Corps of Engineers, and the reason it is a combined 
sewer system is because that is the way they did it then.
    The Federal Government makes about one-third of the use of 
our sewer system. That means all of downtown Washington, all 
the Capitol complex, the kinds of places where we are today. 
Yet the Federal Government has contributed almost nothing to a 
$1 billion plan that the region is now in the midst of to 
overhaul this combined sewer system.
    When I look at amounts of money that the Federal Government 
has given to jurisdictions throughout the United States to deal 
with combined sewer overflow, I am simply amazed. The Federal 
Government doesn't even use those systems, and yet sometimes 
you see hundreds of millions of dollars that has been 
appropriated. I am all for that.
    But if you are going to use this system, then it seems to 
me that the Federal Government ought to contribute to the 
billion-dollar overhaul that is now underway as more than a 
ratepayer--and that is about all that the Federal Government 
has done, except for token amounts. I appreciative of those 
amounts, but they don't begin to meet the problem.
    When there is a storm, a rainstorm, what happens? The way 
the sewer system works is that it overflows, sending sewage 
that is to say raw waste--into the Potomac River, where we get 
our water; the Anacostia River, which flows literally within 
sight of the Capitol and is one of the most polluted rivers of 
the United States; Rock Creek, which we know from those who 
have been to Rock Creek Park; and, of course, the extraordinary 
wonder that is the Chesapeake Bay.
    The Federal Government has a vested interest now in dealing 
with this problem beyond its use of the sewer system. The 
Federal Government is in the midst of a massive development on 
the Anacostia waterfront, which is polluted from the stormwater 
overflow. The Department of Transportation Building is under 
construction now.
    The Southeast Federal Center, perhaps the most valuable 
parcel of land on the East Coast, owned entirely by the Federal 
Government, is now under development.
    The Navy Yard has moved its very important and secure high-
tech tech facility from Crystal City to a new and renovated 
Navy Yard. So there, the Federal Government is on the banks of 
one of the most polluted rivers in the United States, polluted 
because of stormwater overflow.
    I therefore ask for $150 million, a small contribution 
toward beginning to really make a dent in this $1 billion job 
that needs to be done.
    I might add that the District has some interest in this. It 
has an Anacostia waterfront initiative, far smaller than the 
initiative of the Federal Government. For those Members who 
will be going to baseball games, the baseball stadium is not on 
the river, but it is close enough to smell the Anacostia, and I 
think it is time we did something about it.
    I very much appreciate the opportunity, Mr. Chairman, to 
speak about my own request at this time and yield back.
    Mr. Fortuno. Thank you, Ms. Norton.
    Mr. McGovern, thank you for being so patient. You have 5 
minutes.

 STATEMENT OF THE HON. JAMES P. McGOVERN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. McGovern. Thank you, Mr. Chairman, for your patience 
and your willingness to listen to our riveting testimony. I was 
on this committee before I got on the Rules Committee, and I 
remember sitting here listening to all the Members come before 
you. But I appreciate the opportunity to present this testimony 
and to explain two projects of vital importance in my district.
    First, I ask you to support the John H. Chafee Blackstone 
River Valley National Heritage Corridor. The subcommittee can 
support this project by amending a prior authorization in the 
Water Resources Development Act of 1996 to allow for planning, 
design, and construction funding to be made available. This 
project is part of an ongoing urban neighborhood revitalization 
in the city of Worcester, Massachusetts and the surrounding 
region. The main purpose of the project is to reopen and 
recreate sections of the historic Blackstone Canal.
    The Blackstone Canal first opened in 1828 and served to 
spawn the industrial revolution of the city of Worcester and, 
indeed, across the United States. Over time, sections of the 
canal were filled in, and/or buried, as rail became the primary 
means of moving goods. This particular neighborhood has 
suffered blight, as many of the industrial properties within 
the neighborhood have become vacant and derelict. This canal 
project has spurred new investment in the area and has the 
potential to serve as a catalyst for further economic 
development and growth.
    A professional feasibility study of the canal project was 
completed in June of 2003 and estimated the total project costs 
at $20 million. The State's 2004 transportation bond bill 
included funding for the project, which could ultimately serve 
as a local match to the Corps' participation. I would be happy 
to provide the subcommittee with excerpts of the feasibility 
study, if you like, but I respectfully request that you support 
the request for the John H. Chafee Blackstone River Valley 
National HeritageCorridor, and thank you for your consideration 
of this project.
    Second, I would like to ask for support of the project for 
navigation of the harbor of Fall River, Massachusetts. The 
subcommittee can support this project by continued authorizing 
that the depth of the portion of the project extending 
riverward of the Charles M. Braga, Jr. Memorial Bridge in Fall 
River and Somerset, Massachusetts shall not exceed 35 feet.
    This request would complement the city of Fall River's 
comprehensive waterfront redevelopment master plan which 
includes a marina on the Taunton River. The redevelopment of 
the waterfront will attract new marine traffic to Fall River 
Harbor, and this continued attraction is necessary to 
accommodate additional marine traffic within the Taunton River.
    I urge you to support this request, and appreciate your 
attention and thank you again for your time.
    With that I yield back my time. Thank you.
    Mr. Fortuno. Thank you, Mr. McGovern.
    Shall we proceed then with Mr. Allen? You have 5 minutes.

    STATEMENT OF THE HON. THOMAS ALLEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF MAINE

    Mr. Allen. Thank you very much, Mr. Chairman. I appreciate 
the opportunity to testify on the Camp Ellis project on behalf 
of my constituents in Saco, Maine. I also want to thank the 
subcommittee for its past support of this project. In the 108th 
Congress, the subcommittee included a $10 million authorization 
for Camp Ellis in H.R. 2557. Unfortunately, that project has 
changed since 2003, and my request has increased substantially 
to $25 million.
    In 1867- - not 1967--in 1867 an Army Corps jetty was 
constructed to protect the Saco River's navigation channel at 
Camp Ellis, a seaside village within the city of Saco. Since 
that time, the jetty has been lengthened, strengthened, 
smoothed and raised, exacerbating shoreline erosion, while 
protecting the channel. The State geologist has told me that 
the beach erosion problem in Saco is by far the most severe in 
the State.
    Over the past 60 years, 36 homes have been washed out to 
sea. Currently, homes that were once six rows back from the 
shoreline are in danger of being destroyed. During winter 
nor'easter storms, parts of Camp Ellis often become an island, 
and residents fear not only for their homes but for their 
lives. You have to be there to understand that. These dangerous 
conditions are caused by a structure erected, improved, and 
maintained by the United States Government. For that reason, I 
believe that the Federal Government must do everything possible 
to alleviate this situation.
    For the past 5 years, I have been actively involved with a 
broad coalition of Federal, State, and local officials, as well 
as Camp Ellis residents, all of whom are dedicated to fixing 
the Camp Ellis erosion problem. The members of the coalition 
have all agreed to a plan recently proposed by the Army Corps. 
I have been very pleased with the performance of the Army 
Corps. They have just done a terrific job.
    The Army Corps proposes to build a spur jetty off the 
existing jetty. Although the original plan had included a 
breakwater in conjunction with the spur jetty, geologic 
conditions, namely 40 feet of clay under the water off Camp 
Ellis, would make a breakwater prohibitively expensive.
    In fact, the cost estimates for the spur jetty have risen 
since I last made this request in 2003, due to geologic 
conditions underwater and the studies necessary to design an 
adequate structure to mitigate the erosion. That is why I am 
asking for a $25 million authorization instead of the $10 
million authorization.
    But that $25 million would allow the Army Corps to finish 
its design studies and models, build the proposed enhanced spur 
jetty, and to renourish the eroded beach. That figure also 
accounts for previously conducted studies and models. The 
residents of Camp Ellis are justifiably, in my opinion, angry 
at the Federal Government for not fixing a structure that it 
built and that is destroying their homes. They have seen this 
problem studied over and over again for more than a decade and 
are losing patience.
    However, I would not feel comfortable asking the 
subcommittee to support a project unless I believed that it 
would permanently restore the beach and prevent further erosion 
and property loss. The plan developed by the Army Corps, the 
State of Maine and the city of Saco, in consultation with Camp 
Ellis residents, is the best plan to mitigate the damages 
caused by the Corps' jetty.
    However, without congressional authorization, this plan 
will not go forward. I would ask for your support of this 
important project. I want to thank the subcommittee again for 
its past support of this project and for the opportunity to 
appear before you today.
    I yield back my time. Thank you, Mr. Chairman.
    Mr. Fortuno. Thank you, Mr. Allen.
    Mr. Holt, you have 5 minutes.

    STATEMENT OF THE HON. RUSH D. HOLT, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Mr. Chairman. I appreciate your 
patience in hearing all of the Members today, and I would also 
like to put in a request for several things in the water 
resources authorization.
    Speaking about the Corps of Engineers in general, let me 
begin by saying they are a competent organization that do good 
work. But I would like to express real frustration in the way 
that the Corps has been handling projects I think throughout 
the Nation, and certainly in my district.
    Although Congress specifically authorizes projects such as 
ones that I have requested subcommittee support for previously, 
the Corps has repeatedly ignored the guidelines and set their 
own priorities. It has resulted in significant delays that I 
think distress the communities and the residents near these 
projects.
    The most egregious example that I would point to of this 
disregard for projects authorized and appropriated is the 
environmental restoration of Grovers Mill Pond. Those of you 
with a keen sense of history may recognize the name Grovers 
Mill. It was the site of the fictitious invasion of the "War of 
the Worlds." well, there really is a Grovers Mill where Orson 
Wells said these spacecraft were coming in.
    Well, Grovers Mill Pond is a beautiful and historic site 
and a recreation destination in Westminster Township. But years 
of sediment buildup and runoff from the watershed have caused 
the pond to be overrun with aquatic weeds and algae.
    In fiscal year 2003, Congress specifically designated 
$500,000 in funding for fixing this pond for this project, and 
an initial 10,000 was spent to begin a draft study that was 
completed in the spring of 2003. In August, the Corps was ready 
to begin further study work, but by that time the Corps 
headquarters had already reprogrammed the funding to other 
projects.
    In fiscal 2004 the Corps spent $40,000 to do the first 
stage of study and design--data collection. The Corps has 
recently informed me that no further work can be conducted 
until fiscal year 2005 funding is made available. Now, let me 
repeat: There was specifically designated funding in the 2003 
budget. So this pond in its current condition is not only an 
eyesore, it is a "nose sore" for the community and for the 
residents who live near it. It gives off an unpleasant smell in 
some seasons and is long overdue for fixing.
    So I urge the subcommittee to include language in your bill 
that will require the Corps to use its funds to complete the 
restoration of Grovers Mill Pond.
    I would mention, quickly, that I also request that the 
committee support the restoration of Rogers Pond, which is 
located in Franklin Township, New Jersey. This project was 
included in the WRDA bill in the 108th Congress and I am 
hopeful that the subcommittee will see fit to include an 
authorization for this project in this bill.
    I believe you have heard from Representative Pallone. We 
both have an interest in the South River Flood Damage Reduction 
and Ecosystem Restoration Project in South River, New Jersey, 
as well as the project in Marlboro, New Jersey. I would ask the 
subcommittee, respectfully, to include authorization for these 
projects in the legislation as you draft it.
    So I again thank the committee for your patient taking of 
all of this testimony.
    Mr. Fortuno. My pleasure, Mr. Holt. Thank you very much.
    We will now recognize the gentleman from Michigan, Mr. 
Stupak, for 5 minutes.

STATEMENT OF THE HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Mr. Chairman, and it is a pleasure 
to be here. Just briefly, my district encompasses three of the 
five Great Lakes and Michigan passed a bill here--and it is not 
in my testimony--but I want to bring it up because hopefully we 
can still get a chance to work on it. I know the Chairman, Mr. 
Duncan, has been interested in it, but we just can't get all 
our groups together yet on my beach grooming bill, which 
basically says this: When you are on the beaches of the Great 
Lakes, we are going to have one set of standards.
    Right now the State of Michigan has its standards on what 
you can do with your lakefront property. The Federal Government 
has a different set of standards. So we are trying to bring the 
two together and we are fairly close. We still have a few more 
issues to work out. So I just want to bring it to everyone's 
attention that we still hope we can do it yet this year to get 
it passed this session of Congress.
    Let me first bring up the Menominee River dredging. This 
committee has been great. We have always put this project in 
the WRDA bill. The WRDA bill goes to the Senate and never goes 
anywhere. We also have this as a freestanding bill. We are 
trying to get the committee to sign off on it. In fact, I know 
my side of the aisle signed off. Hopefully, your side of the 
aisle will join us.
    What we had in Menominee, we were always authorized, way 
back in 1960, to dredge from 24 to 26 feet within the river. We 
checked, and the Army Corps said you don't have to do anything 
with it. Well, lo and behold, the authorization lapsed, based 
upon some bum advice we got from the Army Corps. I am not 
picking on the Army Corps, but that is exactly what happened. 
So now we have situations like this, which was just recently 
here last fall, a big 680-foot freighter run aground in the 
Menominee River because it is less than 20 feet at the mouth.
    The city of Menominee has dredged the river to 26 feet at 
their own cost, because we do have a port authority there, and 
a lot of shipping going on. But this is what is happening: The 
Army Corps has said if we could do a freestanding bill, move 
it, just give them the authorization, the spring break-up of 
the ice, which will be breaking up here on March 21st, they 
will have the first tug out there and do the dredging for us.
    They realize they made an error in this whole situation, 
would like to remedy it because it is a shipping port of great 
significance to Michigan and Wisconsin. Every time one of these 
ships runs aground it costs, probably, just depending on the 
extent of the damage and how long it takes to get it off, 
probably about $10- to $20,000, which comes out of the port 
authority, and it makes it no longer viable economically to 
ship. So this is just an example of what happens at least once 
a year, twice a year up there.
    Secondly, the Ontonagon Harbor and East Pier Walkway. Back 
in 1995 the Army Corps went in there and changed the river; I 
should say, put on steel skirting for a breakwall. What 
happened, it caused a ping-pong effect. The city had just did 
its whole walkway with city and State funds; that ping-pong 
effect of the water ripped up the walkway.
    For 10 years I have been fighting with the Army Corps to 
fix it. It was their responsibility, improper design--which I 
can't blame the Corps here, it came from the University of 
Michigan--but anyway, improper design. The walkway is 
destroyed, it is unsafe. They haven't used it in 10 years. And 
every time the Army Corps comes in, they say we have got to get 
it authorized, we have got to get it authorized. Once again, we 
would like you to authorize it, and this committee goes to the 
Senate, and that is where the bill dies.
    Au Sable River dredging, again you had this in the WRDA 
bill last year. About a quarter of a mile of dredging we need. 
Just a primary source of revenue for that area and the city of 
Oscoda is fishing, boating, and local marinas and restaurants 
in the area of the Au Sable River. So you did it last year, and 
I will ask you to do it again.
    Last but not least is the Traverse City Harbor Dredging. I 
used to represent Traverse City in reapportionment, I no longer 
do. But while I am there, it is the home of the Great Lakes 
Maritime Academy. Through our efforts and that of other members 
of the Michigan delegation, we were able to get them their 
Great Lakes maritime training ship. They went in and built a 
whole new big complex at this port. They do need some dredging 
there.
    So I certainly would support the Great Lakes Maritime 
Academy facilities and the dredging and the fixing of that 
port. The partners in the Great Lakes Academy, the Great Lakes 
Maritime Academy, who support--because they use the research 
places there--is Grand Valley University, Michigan State 
University, University of Michigan, Michigan Technological 
University, Ferris State University, University of Wisconsin-
Superior and University of Minnesota-Duluth.
    As you can see, all of us in the Great Lakes use Northwest 
Michigan College. They have secured local funding of 1.3 
million, and the total cost is going to be about 3 million, and 
we are hoping we can increase the harbor space, and we are 
going to need some dredging and other renovations to allow NMC 
to meet the demands of their program.
    That was a quick summary. Anything further, Mr. Chairman, 
or any questions, I will be happy to answer them.
    Mr. Fortuno. Thank you very much, Mr. Stupak, thank you.
    The Chair will now recognize himself.

STATEMENT OF THE HON. LUIS FORTUNO, A DELEGATE IN CONGRESS FROM 
                  THE TERRITORY OF PUERTO RICO

    Mr. Fortuno. The Corps has undertaken a number of flood 
control and navigation projects in Puerto Rico in recent years 
which were authorized through this committee in the Rivers and 
Harbors Act and Water Resources Development Act. Some of these 
projects have already been authorized by this committee.
    I met with Colonel Carpenter, commander of the Jacksonville 
District, and Richard Bonner, deputy district engineer for 
programs, as well as Chief Jose Rosado from the Antilles 
Construction Office to identify projects for inclusion in the 
Water Resources Development Act of 2005. The Puerto Rico high-
priority projects are the Arecibo River, the Portugues and 
Bucana Rivers in Ponce, the Rio Puerto Nuevo, Rio Fajardo, the 
San Juan Harbor, Cano Martin Pena, the Rio La Plata and Ojo De 
Agua in Aguadilla, Puerto Rico.
    The Rio de la Plata project was authorized in Water 
Resources Development Act of 1990. Preconstruction engineering 
and design has long since been completed, and for which 
construction funds were appropriated in each fiscal year from 
1995 through 2004. Yet physical construction has not yet 
commenced. The project has been on the President's long-term 
recovery action plan for Puerto Rico. A Project Cooperation 
Agreement for the project was signed in June 1995 following an 
appropriation of initial construction funds. The initiation of 
physical construction, however, has not yet provided the Corps 
the lands required to award the initial construction contract. 
I am now advised that these lands will be available at the end 
of calendar year 2005. I urge you to move this project to 
construction at the earliest possible time.
    Another project of importance to my constituents is the Rio 
Puerto Nuevo. Rio Puerto Nuevo is located right at the heart of 
Puerto Rico metropolitan area. Severe flooding in the area 
affects 7,500 residents and 700 commercial and public 
structures valued at over $3 billion. However, for the last 2 
years, construction on the project has been very slow, and at 
times the project has been halted.
    The Arecibo River Project is another important Flood 
Control Project authorized by the Water Resources Development 
Act of 1996. The President's budget proposes an allocation of 
$3.8 million for fiscal year 2006.
    Portugues and Bucana Rivers involves the construction of 
9.1 miles of channel improvements and two multipurpose dams 
with uncontrolled emergency spillways.
    The dredging of the San Juan Harbor and restoration of the 
Cano Martin Pena are two operation and maintenance projects of 
critical importance to Puerto Rico.
    Finally, the Rio Fajardo located in the eastern side of the 
island, and the Ojo de Agua in the Aguadilla located in the 
western coast of Puerto Rico, are two section 205 continuing 
authority programs critical to the economic development of the 
two municipalities
    That will conclude my statement for the record.
    Mr. Fortuno. Mrs. Matsui, I was making sure that I would be 
able to make my own statement.
    Now you are certainly recognized for 5 minutes.
    Mrs. Matsui. Thank you so much.
    Mr. Chairman, I appreciate the opportunity to come before 
the committee today to testify on a matter of great importance 
to the whole of my district, Sacramento Area Flood Control 
Agency for flood protection. I know you probably are all 
intimately aware of my husband's commitment to increased flood 
protection for Sacramento.
    It is only through this committee's shared commitment that 
a suite of projects was approved and authorized to put 
Sacramento on the road to a 200-year protection.
    I thank you very much for your diligent work and ongoing 
commitment. I look forward to working with this committee to 
build on my husband's work and to ensure the public safety and 
threat of flooding is diminished, and Sacramento receives the 
level of protection it needs and deserves.
    I realize the committee has a long agenda today, and I 
don't want to take up much of your time.
    What I would do instead is not go into specifics, but to 
submit a statement for the record and look forward to working 
with each of you as we move forward.
    So thank you very much.
    Mr. Fortuno. Thank you very much, and certainly we will 
take your written statement into consideration. We thank you 
for coming over.
    Given the fact that there are no more Members wishing to 
testify, this hearing is now adjourned.
    [Whereupon, at 12:55 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1628.001
    
    [GRAPHIC] [TIFF OMITTED] T1628.002
    
    [GRAPHIC] [TIFF OMITTED] T1628.003
    
    [GRAPHIC] [TIFF OMITTED] T1628.004
    
    [GRAPHIC] [TIFF OMITTED] T1628.005
    
    [GRAPHIC] [TIFF OMITTED] T1628.006
    
    [GRAPHIC] [TIFF OMITTED] T1628.007
    
    [GRAPHIC] [TIFF OMITTED] T1628.008
    
    [GRAPHIC] [TIFF OMITTED] T1628.009
    
    [GRAPHIC] [TIFF OMITTED] T1628.010
    
    [GRAPHIC] [TIFF OMITTED] T1628.011
    
    [GRAPHIC] [TIFF OMITTED] T1628.012
    
    [GRAPHIC] [TIFF OMITTED] T1628.013
    
    [GRAPHIC] [TIFF OMITTED] T1628.014
    
    [GRAPHIC] [TIFF OMITTED] T1628.015
    
    [GRAPHIC] [TIFF OMITTED] T1628.016
    
    [GRAPHIC] [TIFF OMITTED] T1628.017
    
    [GRAPHIC] [TIFF OMITTED] T1628.018
    
    [GRAPHIC] [TIFF OMITTED] T1628.019
    
    [GRAPHIC] [TIFF OMITTED] T1628.020
    
    [GRAPHIC] [TIFF OMITTED] T1628.021
    
    [GRAPHIC] [TIFF OMITTED] T1628.022
    
    [GRAPHIC] [TIFF OMITTED] T1628.023
    
    [GRAPHIC] [TIFF OMITTED] T1628.024
    
    [GRAPHIC] [TIFF OMITTED] T1628.034
    
    [GRAPHIC] [TIFF OMITTED] T1628.035
    
    [GRAPHIC] [TIFF OMITTED] T1628.025
    
    [GRAPHIC] [TIFF OMITTED] T1628.026
    
    [GRAPHIC] [TIFF OMITTED] T1628.027
    
    [GRAPHIC] [TIFF OMITTED] T1628.028
    
    [GRAPHIC] [TIFF OMITTED] T1628.029
    
    [GRAPHIC] [TIFF OMITTED] T1628.030
    
    [GRAPHIC] [TIFF OMITTED] T1628.031
    
    [GRAPHIC] [TIFF OMITTED] T1628.032
    
    [GRAPHIC] [TIFF OMITTED] T1628.033
    
    [GRAPHIC] [TIFF OMITTED] T1628.036
    
    [GRAPHIC] [TIFF OMITTED] T1628.037
    
    [GRAPHIC] [TIFF OMITTED] T1628.038
    
    [GRAPHIC] [TIFF OMITTED] T1628.039
    
    [GRAPHIC] [TIFF OMITTED] T1628.040
    
    [GRAPHIC] [TIFF OMITTED] T1628.041
    
    [GRAPHIC] [TIFF OMITTED] T1628.042
    
    [GRAPHIC] [TIFF OMITTED] T1628.043
    
    [GRAPHIC] [TIFF OMITTED] T1628.044
    
    [GRAPHIC] [TIFF OMITTED] T1628.045
    
    [GRAPHIC] [TIFF OMITTED] T1628.046
    
    [GRAPHIC] [TIFF OMITTED] T1628.047
    
    [GRAPHIC] [TIFF OMITTED] T1628.048
    
    [GRAPHIC] [TIFF OMITTED] T1628.049
    
    [GRAPHIC] [TIFF OMITTED] T1628.050
    
    [GRAPHIC] [TIFF OMITTED] T1628.051
    
    [GRAPHIC] [TIFF OMITTED] T1628.052
    
    [GRAPHIC] [TIFF OMITTED] T1628.053
    
    [GRAPHIC] [TIFF OMITTED] T1628.054
    
    [GRAPHIC] [TIFF OMITTED] T1628.055
    
    [GRAPHIC] [TIFF OMITTED] T1628.056
    
    [GRAPHIC] [TIFF OMITTED] T1628.057
    
    [GRAPHIC] [TIFF OMITTED] T1628.058
    
    [GRAPHIC] [TIFF OMITTED] T1628.059
    
    [GRAPHIC] [TIFF OMITTED] T1628.060
    
    [GRAPHIC] [TIFF OMITTED] T1628.061
    
                                    

</pre></body></html>
